No. 19-______

In the Supreme Court of the United States
______________

GOVERNOR OF DELAWARE,
Applicant/Petitioner,
v.
JAMES R. ADAMS,
Respondent.
______________
Application for an Extension of Time Within
Which to File a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
______________
To the Honorable Samuel A. Alito, Jr.
Associate Justice of the United States Supreme Court
and Circuit Justice for the Third Circuit
______________
MICHAEL W. MCCONNELL
DAVID C. MCBRIDE
*Counsel of Record
MARTIN S. LESSNER
WILSON SONSINI GOODRICH & ROSATI, PC
PILAR G. KRAMAN
650 Page Mill Road
YOUNG CONAWAY STARGATT & TAYLOR,
Palo Alto, CA 94304
LLP
(650) 493-9300
Rodney Square
mmcconnell@wsgr.com
1000 North King Street
Wilmington, DE 19801
RANDY J. HOLLAND
(302) 571-6600
WILSON SONSINI GOODRICH & ROSATI, PC
dmcbride@ycst.com
222 Delaware Avenue
mlessner@ycst.com
Suite 800
pkraman@ycst.com
Wilmington, DE 19801
(302) 304-7600
rholland@wsgr.com
Counsel for Applicant-Petitioner Governor of Delaware

APPLICATION
To the Honorable Samuel A. Alito, Jr., Associate Justice of the United States
Supreme Court and Circuit Justice for the Third Circuit:
Pursuant to Rule 13.5 of the Rules of the Supreme Court of the United States
and 28 U.S.C. § 2101(c), Applicant-Petitioner Governor John C. Carney respectfully
requests a 60-day extension of time, to and including Friday, October 4, 2019, within
which to file a petition for a writ of certiorari to review the judgment of the United
States Court of Appeals for the Third Circuit in this case.
The United States Court of Appeals for the Third Circuit issued its original
decision on February 5, 2019. See Adams v. Governor of Del., 914 F.3d 827 (3d Cir.
2019). It modified that decision on February 13, 2019. See Adams v. Governor of Del.,
No. 18-1045, 2019 U.S. App. LEXIS 4404 (3d Cir. Feb. 13, 2019). On April 10, 2019, it
granted Governor Carney’s petition for panel rehearing. See Adams v. Governor of Del.,
920 F.3d 878 (3d Cir. 2019). That same day, the Court of Appeals issued its new
precedential opinion. See Adams v. Governor of Del., 922 F.3d 166 (3d Cir. Apr. 10,
2019) (Appendix A).
Governor Carney sought rehearing, which was denied on May 7, 2019 (Appendix
B). Unless extended, the time to file a petition for certiorari will expire on August 5,
2019. See Sup. Ct. R. 13.3.
This application is being filed more than ten days before the petition is currently
due. See Sup. Ct. R. 13.5. The jurisdiction of this Court would be invoked under 28
U.S.C. § 1254(1).

-1-

This case raises important issues for the Court to resolve. The Court of Appeals
invalidated the Delaware Constitution’s 120-year-old requirement that its judiciary be
politically balanced on the ground that the First Amendment prohibits states from
making political affiliation relevant to hiring, firing, promotion, or transfer of
employees unless “political party allegiance [is] an appropriate condition of” the job.
Adams, 922 F.3d at 178. While political affiliation is considered appropriate for
policymaking officials, the Court of Appeals concluded, contrary to precedent in two
other circuits, that “the policymaking exception does not apply to members of the
judicial branch.” Id. at 180.
Section 3 of Article IV of the Delaware Constitution creates two relevant
“components” with regard to the Delaware Supreme Court, Delaware Superior Court,
and the Delaware Chancery Court: “the bare majority component (which limits the
number of judicial positions that can be occupied by members of a single political party)
and the major political party component (which mandates that the other judicial
positions must be filled with members of the other major political party in Delaware).”
Id. at 171. Only the bare majority component applies to the Family Court and the
Court of Common Pleas.
Section 3 of Article IV of the Delaware Constitution was challenged by
Respondent James Adams, a lawyer who changed his political affiliation from
Democrat to Independent and, then, eight days later, filed the instant lawsuit without
ever having applied for a judicial position as an Independent.

-2-

The Court of Appeals concluded that this provision of the Delaware Constitution
violates the First Amendment rights of judicial aspirants who do not belong to one of
the State’s two major political parties. Specifically, the court held that (1) a
government employer is unable to consider the political affiliation of a candidate for a
non-policymaking job; (2) “judges are not policymakers” primarily because judges are to
decide cases independent of the political views of person appointing them 1 ; (3) the
major party component of the constitutional provision was not “narrowly tailored” to
the State’s interest in a politically balanced judiciary, id. at 182; and (4) the “major
political party component” of Article IV, § 3, was not severable from the “bare majority
component,” id. at 183–84. The court thus invalidated Article IV, § 3, in its entirety, as
it applies to the Delaware Supreme Court, Superior Court, and Chancery Court.
Even while it held that Article IV, § 3, violates the First Amendment, the Court
of Appeals recognized that the political-balancing requirement has been vital to
preserving the role of the Delaware judiciary as an objective forum for cases of
nationwide importance, especially in the field of corporate law. In a concurrence joined
by the other two members of the panel, Judge McKee noted that “[m]embers of the

1

The court concluded that judges are not policymakers by limiting the definition of policymakers to persons who are

answerable to the person appointing them. The court stated that “the question before us is not whether judges make
policy, it is whether they make policies that necessarily reflect the political will and partisan goals of the party in power.”
Adams, 922 F.3d at 179 (footnote omitted). As such, while judges make policy, the court concluded that judges do not
come within the Elrod/Branti policymaker exception because they are to be independent of the person appointing them.
Id. at 178–79. The two courts of appeals that concluded judges are policymakers expressly rejected the proposition that
policymakers are limited to persons answerable to the person appointing them. See Newman v. Voinovich, 986 F.2d 159,
163 (6th Cir. 1993); Kurowski v. Krajewski, 848 F.2d 767, 770 (7th Cir. 1988) (“Neither Elrod nor Branti makes
anything turn on the relation between the job in question and the implementation of the appointing officer’s policies.”).

-3-

Delaware bench credit the political balancing requirement for at least part” of
Delaware’s national reputation for judicial excellence. Adams, 922 F.3d at 186.
Although the court assumed that there is a less restrictive means for the State to
protect its “vital state interest” in political balance, without identifying that means,
any such change would entail constitutional amendment, a laborious and often
contentious process, whose outcome is unpredictable.
The Third Circuit decision undermines one of the most fundamental principles of
American federalism: the authority of the people of the several states to structure their
own state governments, including especially their judiciaries. As this Court explained
in Gregory v. Ashcroft, 501 U.S. 452, 460 (1991):
The present case concerns a state constitutional provision
through which the people of Missouri establish a qualification
for those who sit as their judges. This provision goes beyond an
area traditionally regulated by the States; it is a decision of the
most fundamental sort for a sovereign entity. Through the
structure of its government, and the character of those who
exercise government authority, a State defines itself as a
sovereign.
See also Williams-Yulee v. Fla. Bar, 135 S. Ct. 1656, 1671 (2015) (citing
Gregory v. Ashcroft, supra, and upholding, under the First Amendment,
restrictions imposed by Florida on campaign activities of judicial candidates,
noting that a State’s efforts to “preserve public confidence in the integrity of
the judiciary” deserve judicial respect “especially because they reflect
sensitive choices by the States in an area central to their own governance—
how to select those who ‘sit as their judges’”).

-4-

The decision also expands the First Amendment prohibition on considering party
affiliation in connection with government employment by narrowing the legitimate use
of party affiliation for positions where such affiliation “is an appropriate requirement
for the effective performance of the public office involved.” Branti v. Finkel, 445 U.S.
507, 518 (1980); see id. (recognizing that the political affiliation of an election judge
might be an appropriate consideration to fulfill a statutory mandate of political balance
even though the position does not involve the making of policy).
As the Third Circuit explicitly recognized, the decision below directly conflicts
with decisions of two other Courts of Appeals, Kurowski v. Krajewski, 848 F.2d 767 (7th
Cir. 1988), and Newman v. Voinovich, 986 F.2d 159 (6th Cir. 1993). See Adams, 922
F.3d at 180 (“We are aware that two of our sister Circuits have concluded otherwise.”).
The Court granted certiorari in Gregory on the question whether judges fall within the
“policymaking” exception to the Age Discrimination in Employment Act, but resolved
the case on other grounds. See Gregory, 501 U.S. at 474 (White, J., concurring in part
and dissenting in part). The question is as important today as it was when certiorari
was granted in Gregory. Undersigned counsel respectfully submit that the extension of
time requested here is warranted in light of the importance of these issues.
Governor Carney recently retained new lead counsel to assist in preparing a
petition for a writ of certiorari in this case, Michael W. McConnell and Randy J.
Holland of Wilson Sonsini Goodrich & Rosati, PC. Messrs. McConnell and Holland
were not involved in the trial or appellate proceedings below. We respectfully request
the additional time to familiarize ourselves with the relevant materials, including the
-5-

record and arguments presented in the United States Court of Appeals for the Third
Circuit, and to prepare an appropriate petition for consideration by this Court.

CONCLUSION
For the foregoing reasons and good cause shown, Applicant-Petitioner
respectfully requests that this Court grant this application for an extension of time to
file a petition for writ of certiorari.

Respectfully submitted,

~ t i- ~
MICHAEL W. McCONNELL

*Counsel of Record
WILSON SONSINI GOODRICH

& ROSATI, PC

650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300
mmcconnell@wsgr.com
RANDY J. HOLLAND
WILSON SONSINI GOODRICH

222 Delaware Avenue
Suite 800
WilmingtonA DE 19801
(302) 304-7b00
rholland@wsgr.com

& ROSATI, PC

DAVID C. McBRIDE
MARTINS. LESSNER
PILAR G. KRAMAN
YOUNG CONAWAY STARGATT & TAYLOR, LLP

Rodn~y Square
1000 North ·I_!g Street
Wilmington, DE 19801
(302) 571-6600
clmcbride@ycst.com
mlessner@ycst.com
pkraman@ycst.com

Counsel for J!pplicant-Petitioner
Governor of Delaware

-6-

APPENDIX A

Adams v. Governor of Del.
United States Court of Appeals for the Third Circuit
September 25, 2018, Argued; April 10, 2019, Filed
No. 18-1045
Reporter
922 F.3d 166 *; 2019 U.S. App. LEXIS 10618 **

JAMES R. ADAMS v. GOVERNOR OF
DELAWARE, Appellant

Constitutional Law > ... > Case or
Controversy > Standing > Elements

Prior History: [**1] On Appeal from the United
States District Court for the District of Delaware.
(D.C. No. 1-17-cv-00181). Honorable Mary Pat
Thynge, U.S. Magistrate Judge.

Civil Procedure > Preliminary
Considerations > Justiciability > Standing

Adams v. Carney, 2017 U.S. Dist. LEXIS 200304
(D. Del., Dec. 6, 2017)

LexisNexis® Headnotes

Civil Procedure > Preliminary
Considerations > Justiciability > Standing
Civil Procedure > Preliminary
Considerations > Jurisdiction > Subject Matter
Jurisdiction
Constitutional Law > The Judiciary > Case or
Controversy > Standing
HN1[ ] Standing
Constitutional standing, also referred to as Article
III standing, is a threshold issue that must be
addressed before considering issues of prudential
standing. Because it is an essential component of
subject matter jurisdiction, if Article III standing is
lacking, the court's inquiry must end and the claim
must be dismissed.

Civil
Procedure > ... > Justiciability > Standing > Inj
ury in Fact
HN2[ ] Elements
To satisfy the irreducible conditional minimum of
standing, a plaintiff must show that he has: (1)
suffered an injury in fact, (2) that is fairly traceable
to the challenged conduct of the defendant, and (3)
that is likely to be redressed by a favorable judicial
decision. Of standing's three elements, injury in
fact, is the first and foremost. To establish injury in
fact, a plaintiff must show that he or she suffered an
invasion of a legally protected interest that is
concrete and particularized and actual or imminent,
not conjectural or hypothetical. However, a plaintiff
need not make futile gestures to establish that
injury is actual and not conjectural.

Constitutional Law > The Judiciary > Case or
Controversy > Standing
Civil Procedure > Preliminary
Considerations > Justiciability > Standing
HN3[ ] Standing
It is black letter that standing may not be dispensed
in gross.

Page 2 of 22
922 F.3d 166, *166; 2019 U.S. App. LEXIS 10618, **1

Constitutional Law > The Judiciary > Case or
Controversy > Standing
Civil Procedure > Preliminary
Considerations > Jurisdiction > Subject Matter
Jurisdiction
Civil Procedure > Preliminary
Considerations > Justiciability > Standing

constitutional or statutory provision, the court has
jurisdiction to turn to the merits of her case. If the
court determines on the merits that part of the
statute that has injured her is unconstitutional, it
then asks whether part of the statute can remain
intact while the unconstitutional part falls.

Constitutional Law > ... > Case or
Controversy > Constitutionality of
Legislation > Standing

HN4[ ] Standing
Civil Procedure > Preliminary
Considerations > Justiciability > Standing

While Article III standing is a threshold issue that
implicates subject matter jurisdiction, prudential
Constitutional Law > The Judiciary > Case or
standing is not. Instead, it is a judicially selfControversy > Standing
imposed limit on the exercise of federal
jurisdiction. Prudential standing cannot vest a court
HN6[ ] Standing
with subject matter jurisdiction; therefore, it cannot
replace or substitute for constitutional standing, as
Even when Article III standing is present, the court
without the latter, the case must be dismissed.
looks to prudential considerations to avoid deciding
questions of broad social import where no
individual rights would be vindicated and to limit
Governments > Legislation > Severability
access to the federal courts to those litigants best
suited to assert a particular claim. Prudential
Constitutional Law > ... > Case or
standing requires (1) that a litigant assert his or her
Controversy > Constitutionality of
own legal interests rather than those of a third
Legislation > Standing
party; (2) that the grievance not be so abstract as to
amount to a generalized grievance; (3) and that the
Constitutional Law > The Judiciary > Case or
plaintiff's interests are arguably within the zone of
Controversy > Standing
interests protected by the statute, rule, or
constitutional provision on which the claim is
Civil Procedure > Preliminary
based.
Considerations > Justiciability > Standing
HN5[ ] Severability
When the court considers standing, it asks whether
the plaintiff before it has actually been injured by
the statute or constitutional provision she
challenges. When the court considers severability,
it asks whether all or only part of a constitutionally
infirm statute must be stricken. But standing does
not need to be established independently for each
clause of a challenged provision. Once a plaintiff
has met the Article III requirements for a particular

Civil Procedure > ... > Summary
Judgment > Burdens of Proof > Nonmovant
Persuasion & Proof
HN7[ ] Nonmovant Persuasion & Proof
A party may not rely on speculation and conjecture
in opposing a motion for summary judgment.

Page 3 of 22
922 F.3d 166, *166; 2019 U.S. App. LEXIS 10618, **1

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
HN8[ ] Freedom of Association
To justify terminating a public employee based on
political allegiance, the government must show that
the practice furthers some vital government end by
a means that is least restrictive of freedom of belief
and association in achieving that end, and the
benefit gained must outweigh the loss of
constitutionally protected rights.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
HN9[ ] Freedom of Association
Nonpolicymaking, nonconfidential government
employee may not be discharged or threatened with
discharge on the sole ground of his or her political
beliefs.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
HN10[ ] Freedom of Association
If an employee's private political beliefs would
interfere with the discharge of his public duties, his
First Amendment rights may be required to yield to
the State's vital interest in maintaining
governmental effectiveness and efficiency. The
ultimate inquiry is not whether the label
"policymaker" or "confidential" fits a particular
position; rather, the question is whether the hiring
authority can demonstrate that party affiliation is an
appropriate requirement for the effective
performance of the public office involved. Aome
positions, like that of an election judge, might be
political without being a policymaking role, and

some, like that of a state university football coach,
might involve setting policy without being political.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
HN11[ ] Freedom of Association
The general prohibition on politically-motivated
discharge also applies to decisions to promote,
transfer, or hire an employee. Unless these
patronage practices are narrowly tailored to further
vital government interests, the court must conclude
that they impermissibly encroach on First
Amendment freedoms.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
HN12[ ] Freedom of Association
The fact that an employee is in a policymaking or
confidential position is relevant to the question of
whether political affiliation is a necessary job
requirement, but this fact is no longer dispositive.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
Governments > Courts > Judges
HN13[ ] Freedom of Association
The U.S. Court of Appeals for the Third Circuit has
set forth criteria to aid in determining whether an
employee's job responsibilities would make
political party allegiance an appropriate condition
of employment. The court considers whether the
employee has duties that are non-discretionary or
non-technical, participates in discussions or other
meetings, prepares budgets, possesses the authority

Page 4 of 22
922 F.3d 166, *166; 2019 U.S. App. LEXIS 10618, **1

to hire or fire other employees, has a high salary,
retains power over others, and can speak in the
name of policymakers. The key factor is whether an
employee in that position has meaningful input into
decisionmaking concerning the nature and scope of
a major program. Using this analysis, the court has
concluded that political affiliation is an appropriate
requirement for a director of a veterans'
administrative services department, an assistant
director of public information, assistant district
attorneys, city solicitors and assistant city solicitors,
a solicitor for the Northeast Pennsylvania Hospital
and Education Authority, and a city manager,
among others. The court now concludes that a
judicial officer, whether appointed or elected, is not
a policymaker.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
HN14[ ] Freedom of Association
The purpose of the policymaking exception is to
ensure that elected officials may put in place loyal
employees who will not undercut or obstruct the
new administration. If a job cannot properly be
conditioned upon allegiance to the political party in
control,
the
policymaking
exception
is
inappropriate for purposes of determining whether
political party allegiance is an appropriate condition
of employment.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
Governments > Courts > Judges
HN16[ ] Freedom of Association
The U.S. Court of Appeals has always more
narrowly applied the policymaking exception to
only the class of employees whose jobs cannot be
performed effectively except by someone who
shares the political beliefs of the appointing
authority. There can be no serious question that
judicial candidates of different political parties can
effectively serve as state judges. Thus, while
political debates rage about issues that judges must
decide in the course of their state employment, the
court does not believe that this leaves judges
entirely at the whim of state governors and the
patronage of the ruling party. While states have
nearly unfettered discretion to select state judges,
states cannot condition judicial positions on
partisan political affiliation alone.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
Governments > Courts > Judges
HN17[ ] Freedom of Association

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
HN15[ ] Freedom of Association
If an employee's private political beliefs would
interfere with the discharge of his public duties, his
First Amendment rights may be required to yield to
the State's vital interest in maintaining
governmental effectiveness and efficiency.

Under U.S. Court of Appeals for the Third Circuit
case law, discrimination based on political
patronage is only actionable where the employee's
political affiliation was a substantial or motivating
factor in the government's employment decision.
Elrod v. Burns and Branti v. Finkel protect
affiliation—and decisions not to affiliate—with a
political party. The court has never read them to
prohibit an appointing official from considering a
job candidate's views on questions and issues
related to the job itself. There is a wide gulf

Page 5 of 22
922 F.3d 166, *166; 2019 U.S. App. LEXIS 10618, **1

between a governor asking a judicial candidate
about his philosophy on sentencing, for example,
and a governor posting a sign that says Communists
need not apply. The former does not run afoul of
the First Amendment; but in the court's view, the
latter does. Because the approach of the Sixth and
Seventh Circuits would allow governors both to
weigh an individual candidate's political beliefs and
to condition judicial positions on party allegiance,
the court disagrees.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
HN18[ ] Freedom of Association
To justify a rule that impinges an employee's First
Amendment association rights, the state must show
both that the rule promotes a vital state interest and
that the rule is narrowly tailored to that interest.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
Governments > Courts > Judges

alone, would be capable of enforcement; and
second, courts consider whether the legislature
intended for the unobjectionable part to stand in
case the other part should fall. In determining
whether one portion of a statute or constitutional
provision is severable from another, the touchstone
must always be legislative intent.

Constitutional Law > Bill of
Rights > Fundamental Freedoms > Freedom of
Association
Governments > Legislation > Severability
Governments > Courts > Judges
HN21[ ] Freedom of Association
Finding that the major political party component
cannot be severed, the U.S. Court of Appeals for
the Third Circuit concludes that the sections of Del.
Cost. art. IV, § 3 containing the major political
party component are unconstitutional and must be
stricken.

Constitutional Law > ... > Case or
Controversy > Constitutionality of
Legislation > Inferences & Presumptions

HN19[ ] Freedom of Association
Governments > Legislation > Severability
Because Del. Const. art. IV, § 3 is not narrowly
tailored to further a vital state interest, the HN22[ ] Inferences & Presumptions
infringement on judicial candidates' association
Any doubt, as to the correctness of the court's
rights is unconstitutional.
conclusion on severability, is resolved by the
maxims that a statute must be held valid if it is
possible for the court to do so; that every
Governments > Legislation > Severability
presumption must be resolved in favor of its
validity; and that it should not be declared
HN20[ ] Severability
unconstitutional unless the court is convinced of
Severability of a state statute or constitutional that status beyond a reasonable doubt.
provision is a question of state law. The
severability analysis under Delaware law proceeds
in two steps: first, courts consider whether the
Governments > Legislation
unobjectionable part of the provision, standing

Page 6 of 22
922 F.3d 166, *166; 2019 U.S. App. LEXIS 10618, **1

HN23[ ] Legislation
The court restrains itself from rewriting state law
even as it strives to salvage it.
Counsel: For Appellant: David C. McBride
[Argued], Pilar G. Kraman, Martin S. Lessner,
Young Conaway Stargatt & Taylor, Wilmington,
DE.
For Appellee: David L. Finger [Argued], Finger &
Slanina, Wilmington, DE.
Judges: Before: MCKEE, RESTREPO, and
FUENTES, Circuit Judges.
Opinion by: FUENTES

Opinion

that limits a judicial candidate's freedom to
associate (or not to associate) with the political
party of his or her choice is unconstitutional. The
Governor argues that because judges are
policymakers, there are no constitutional restraints
on his hiring decisions and he should be free to
choose candidates based on whether they belong to
one of the two major political parties in
Delaware—that is, whether they are Democrats or
Republicans. We disagree and conclude that judges
are not policymakers because whatever decisions
judges make in any given case relates to the case
under review and not to partisan political interests.
We therefore conclude that the portions of
Delaware's constitution that limit Adams's ability to
apply for a judicial position while associating with
the political party of his choice violate his First
Amendment rights, and we will accordingly affirm
in part and reverse in part the District Court's grant
of summary judgment in favor of Adams.

[*169] OPINION OF THE COURT
FUENTES, Circuit Judge.
James R. Adams is a resident and member of the
State Bar of Delaware. For some time, he has
expressed a desire to be considered for a judicial
position in that state. Following the announcement
of several judicial vacancies, Adams considered
applying but ultimately chose not to because the
announcement required that the candidate be a
Republican. Because Adams was neither a
Republican nor a Democrat, he concluded that any
application he submitted would be futile.
Adams brings this suit against the Governor of the
State of Delaware to challenge the provision of the
Delaware Constitution that effectively limits
service on state courts to members of the
Democratic and Republican parties. Adams claims
that under the Supreme Court's precedent [**2] in
Elrod v. Burns1 and Branti v. Finkel,2 a provision

1 427

Background

A. Article IV, Section 3 of the Delaware
Constitution
In 1897, Delaware was unique in its method of
judicial selection—it was the only state in the
country in which the governor appointed judges
without legislative involvement. [**3] 3 Judicial
selection became an important and contentious
topic during Delaware's constitutional convention
that year. Debating whether or not to move to a
system of judicial election, delegates to the
convention expressed their deep concern over the
politicization of the judiciary. John Biggs, Sr., the
president of the convention, explained his position
that the appointment of judges would enable judges
to remain free from political cronyism and
partisanship:
I think it would be very unwise that our Judges

U.S. 347, 96 S. Ct. 2673, 49 L. Ed. 2d 547 (1976).
3 Randy

2 445

U.S. 507, 100 S. Ct. 1287, 63 L. Ed. 2d 574 (1980).

J. Holland, The Delaware State Constitution: A Reference
Guide 128 (2002).

Page 7 of 22
922 F.3d 166, *169; 2019 U.S. App. LEXIS 10618, **3

should be mixed up, I will say, in politics. We
can obtain good men in this way, by the
confirmation by the Senate, without those men
being under political obligations, such as are
engendered at primaries and at general
elections.

State appoint well equipped men from another
party. I would hail the day when it was done
and would be glad to have it; but to vote to
compel a Governor to appoint a man on
account of his political [**5] affiliation, you
are simply saying, "You are put upon the
Bench to look out for our party interests
whenever they come up." There is no other
construction that you can put upon it. There can
be no other, in my own mind, established, and
that man is expected, whenever a political
question arises, before that Court to take care
of his own party rights or privileges.7

And there are reasons, it occurs to me, why the
Judges should not be elected that perhaps do
not apply to any other officers. For after all,
Judges are but human. Whoever sits upon the
Bench to pass upon the rights of yours as to
your liberty and your property ought certainly
to be as free from all influence and [*170]
bias, political and otherwise, as it is possible to Ultimately, the provision prevailed, and Delaware's
throw around that man.4
constitution has included some form of a political
balance requirement ever since. In 1951, as part of
The delegates ultimately [**4] recommended
a wider series of structural changes to the Delaware
amending the Delaware Constitution to provide for
judiciary, the provision was modified to exclude
gubernatorial nomination of judges, with
third party and unaffiliated voters from applying to
confirmation by the Senate. They did not stop there,
serve as judges on the Supreme Court, Superior
however, and debated a novel approach designed to
Court, and Chancery Court in Delaware. The
make the judiciary "non-partisan, or if it be a better
system thus created is binary, excluding all
word, bipartisan"—a limitation on the number of
candidates from consideration except those of the
judges from one party that could sit on the bench at
Republican or Democratic parties. The provision
any given time.5
has been reaffirmed during the amendment process
Some delegates voiced their support for the several times, including in 2005. Article IV, Section
provision, stating that minority representation on 3 of the Delaware Constitution now reads in
the judicial bench would "bring about a fuller and relevant part:
Appointments to the office of the State
freer discussion of these matters that come before
Judiciary shall at all times be subject to all of
them and that they may make fair and impartial
the following limitations:
decisions on those questions."6 Some, however,
expressed concern that the provision would bring
First, three of the five Justices of the Supreme
about the opposite result. As delegate Andrew
Court in office [**6] at the same time, shall be
Johnson explained:
of one major political party, and two of said
Justices shall be of the other major political
It is well known that [judges serving on
party.
Delaware's] Judiciary at the present time have
Second, at any time when the total number of
been appointed from one political party. That
Judges of the Superior Court shall be an even
probably is not the best course to pursue, and I
number not more than one-half of the members
would be very glad to see the Governor of this
of all such offices shall be of the same political
party; and at any time when the number of such
4 J.A. 117-18.
offices shall be an odd number, then not more
5 J.A.

130.

6 J.A.

133.

7 J.A.

134.

Page 8 of 22
922 F.3d 166, *170; 2019 U.S. App. LEXIS 10618, **6

than a bare majority of the members of all such
offices shall be of the same major political
party, the remaining members of such offices
shall be of the other major political party.

connected, substantive components: the bare
majority component (which limits the number of
judicial positions that can be occupied by members
of a single political party)9 and the major political
party component (which mandates that the
Third, at any time when the total number of the other [**8] judicial positions must be filled with
offices of the Justices of the [*171] Supreme members of the other major political party in
Court, the Judges of the Superior Court, the Delaware). In practice, then, most courts must be
Chancellor and all the Vice-Chancellors shall filled with Democrats and Republicans exclusively.
be an even number, not more than one-half of
the members of all such offices shall be of the
same major political party; and at any time B. Judicial Nominations in Delaware
when the total number of such offices shall be
an odd number, then not more than a bare Since 1978, Delaware governors have relied on
majority of the members of all such offices judicial nominating commissions to identify
10
shall be of the same major political party; the qualified candidates for judicial appointments.
remaining members of the Courts above Eleven of the twelve commission members are
enumerated shall be of the other major political appointment by the Governor, and the twelfth is
appointed by the president of the Delaware State
party.
Bar Association with the consent of the Governor.11
Fourth, at any time when [**7] the total The commission provides a list of three
number of Judges of the Family Court shall be recommended candidates to the Governor. The
an even number, not more than one-half of the Governor is not free to ignore the commission's
Judges shall be of the same political party; and recommendations; if he is not satisfied with the list,
at any time when the total number of Judges the commission generates another list of
shall be an odd number, then not more than a candidates.12 The nominating commission is
majority of one Judge shall be of the same politically balanced and comprised of both lawyers
political party.
and non-lawyers.13
Fifth, at any time when the total number of
Judges of the Court of Common Pleas shall be When a judicial position becomes available, the
an even number, not more than one-half of the nominating commission gives public notice of the
Judges shall be of the same political party; and positions available, the salary, and the job
at any time when the total number of Judges requirements, including the party membership
shall be an odd number, then not more than a required for nomination. [*172] For example, in
majority of one Judge shall be of the same
political party.8
9 When

Thus, the provision is made up of five sections—
one addressing the Supreme Court, one addressing
the Superior Court, one addressing combined
membership of those courts and the Chancery
Court, one addressing the Family Court, and,
finally, one addressing the Court of Common Pleas.
Significantly, there are also two separate, but

there are an even number of judges on a given court, no more
than half of the judicial seats may be held by members of a single
political party. When there is an odd number of judicial positions, no
more than a bare majority (that is, one seat above half) may be held
by members of a party. Id.
10 Holland,
11 See

Executive
Order
16,
available
https://governor.delaware.gov/executive-orders/ eo16/.
12 Holland,

8 Del.

Const. art. IV, § 3.

supra note 3, at 129.

13 Id.

supra note 3, at 129.

at:

Page 9 of 22
922 F.3d 166, *172; 2019 U.S. App. LEXIS 10618, **8

August 2012, the commission gave notice of five
open judicial positions, [**9] of which three were
open only to candidates who were members of the
Democratic Party and two were open to members
of either political party.

C. James Adams's Search for a Judicial Position
James Adams, a member of the Delaware State Bar,
is an Independent who desires a judicial position
but has not applied for one due to his current
political affiliation.
Throughout his career, Adams was a registered
Democrat and participated with the Democratic
Party. In early 2017, that changed, as Adams
became an Independent voter for the first time.14
Adams explained that he changed his affiliation
because he is progressive and grew frustrated with
the centrism of the Democratic Party in Delaware.
He now describes himself as "more of a [Vermont
Senator] Bernie [Sanders] independent."15
Around the same time, Adams read an essay
questioning the constitutionality of Article IV,
Section 3. The essay focused in large part on the
portion of the provision that requires judicial
applicants to be members of one of Delaware's two
major political parties, and posed the question:
"May Delaware enforce a state law providing that
no Independent or member of a minor party shall
be appointed to a judgeship?"16 After reading the
article, Adams [**10] decided to challenge the
provision. He filed the instant lawsuit against John
Carney, the Governor of the State of Delaware, in
February 2017. At the time he filed the lawsuit, he
pointed to two judicial vacancies that both required
14 Adams's

new voter registration card, indicating that he is
unaffiliated with a political party, is dated February 13, 2017 and
was mailed to him on February 14, 2017. Adams cannot remember
the exact day that he switched his party affiliation.
15 J.A.

16 See

Republican candidates.
Although Adams did not apply for either of those
judicial positions, he has applied to similar
positions in the past. In 2009, Adams applied to be
a Family Court Commissioner, but was not
selected. In 2014, Adams considered applying for
judicial positions on the Supreme Court and the
Superior Court; however, at the time he was
registered as a Democrat and the positions were
open only to Republican candidates. Shortly
thereafter, in 2015, Adams retired and assumed
emeritus status with the Delaware State Bar. By
2017 he felt ready to resume searching for a
judicial position, and believed he was a qualified
applicant. He therefore returned to active status in
2017. Notwithstanding his interest, Adams has
refrained from submitting an application based on
his belief that he would not be considered for a
judicial position because of Article IV, Section 3
and his new [**11] affiliation as an Independent
voter.

D. The District Court Proceedings17
Both parties filed cross-motions for summary
judgment. The Governor argued primarily that
Adams lacks both Article III and prudential
standing to bring his claims, and Adams argued that
the political balance requirement violates the First
Amendment because it conditions appointment
[*173] on a judicial candidate's political
affiliation.
The District Court determined that Adams had
Article III standing to challenge some, but not all,
of the sections of the provision. Chief Magistrate
Judge Thynge considered the first three sections
because they contain both a bare majority
component and a major political party component.
She concluded that although Adams did not apply
for an open judicial position on one of those courts,

74.

Joel Edan Friedlander, Is Delaware's 'Other Major Political
Party' Really Entitled to Half of Delaware's Judiciary?, 58 Ariz. L.
Rev. 1139, 1154 (2016).

17 Both

parties consented to the entry of final judgment by a
Magistrate Judge. See Adams v. Hon. John Carney, Dkt. 2, No. 17
Civ. 181 (MPT) (D. Del. 2017).

Page 10 of 22
922 F.3d 166, *173; 2019 U.S. App. LEXIS 10618, **11

his application would have been futile because the
openings available around the time he filed his
complaint were not available to Independents like
himself.

A. Standing

Sections four and five, however, contain only the
bare majority component, and Magistrate Judge
Thynge concluded that Adams did not have
standing to challenge those sections because his
status as an Independent would not have prevented
his [**12] application from being considered. She
nevertheless concluded that he had prudential
standing to challenge those sections and found that
sufficient to confer jurisdiction.

We begin by addressing Adams's constitutional
standing. HN1[ ] Constitutional standing, also
referred to as Article III standing, is "a threshold
issue that must be addressed before considering
issues of prudential standing."19 Because it is an
essential component of subject matter jurisdiction,
if Article III standing is lacking, our inquiry must
end and Adams's claim must be dismissed.20

Turning to the merits, Magistrate Judge Thynge
determined that Article IV, Section 3 restricted
access to a government position (here, a judgeship)
based on political affiliation. She found that the
narrow policymaking exception laid out in Elrod
and Branti, which allows a government employer to
make employment decisions based on political
allegiance for policymakers, did not apply. In
reaching that conclusion, the District Court drew on
Third Circuit and Supreme Court cases
emphasizing that a judge's job is to apply, rather
than create, the law. The District Court also cited
the Delaware Judges' Code of Judicial Conduct,
which mandates that judges refrain from political
activity and instructs judges not to be swayed by
personal opinion. Because political affiliation could
not be seen as a necessary trait for effective judicial
decisionmaking, and because the District Court
concluded that judges do not meet the
policymaking exception established in Elrod and
Branti, she found the provision unconstitutional in
its entirety. This appeal [**13] followed.18

1. Article III Standing

HN2[ ] To satisfy the "irreducible conditional
minimum" of standing, a plaintiff must show that
he has: "(1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the
defendant, and (3) that is likely to be redressed by a
favorable judicial decision."21 Of standing's
[*174] three elements, "injury in fact, [is] the 'first
and foremost.'"22 "To establish injury in fact, a
plaintiff must show that he or she suffered 'an
invasion of a legally protected interest' that is
'concrete and particularized' and 'actual or
imminent, not conjectural or hypothetical.'"23
However, a plaintiff need not make futile gestures
to establish that injury is actual and not
conjectural.24

19 Hartig

Drug Co. Inc. v. Senju Pharm. Co., 836 F.3d 261, 269 (3d
Cir. 2016) (quoting Miller v. Nissan Motor Acceptance Corp., 362
F.3d 209, 221 n.16 (3d Cir. 2004)).
20 See

Lance v. Coffman, 549 U.S. 437, 439, 127 S. Ct. 1194, 167 L.
Ed. 2d 29 (2007).
21 Spokeo,

Discussion

Inc. v. Robins, 136 S. Ct. 1540, 1547, 194 L. Ed. 2d 635
(2016) (citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61,
112 S. Ct. 2130, 119 L. Ed. 2d 351 (1992)).
22 Id.

(quoting Steel Co. v. Citizens for Better Environment, 523 U.S.
83, 103, 118 S. Ct. 1003, 140 L. Ed. 2d 210 (1998)).
18 The

District Court had jurisdiction under 28 U.S.C. § 1331. We
have jurisdiction under 28 U.S.C. § 1291. We exercise plenary
review over the District Court's grant of summary judgment. Curley
v. Klem, 298 F.3d 271, 276 (3d Cir. 2002).

23 Id.

(quoting Lujan, 504 U.S. at 560).

24 Sammon

v. New Jersey Bd. of Medical Examiners, 66 F.3d 639,
643 (3d Cir. 1995).

Page 11 of 22
922 F.3d 166, *174; 2019 U.S. App. LEXIS 10618, **13

HN3[ ] It is black letter that standing may not be
"dispensed in gross."25 Our cases [**14]
demonstrate that we must ask not only whether
Adams has standing to sue at all, but whether he
has standing to challenge part or all of Article IV,
Section 3.26 Accordingly, we do not ask only
whether Adams has been injured by Article IV,
Section 3 of the Delaware Constitution. We must
identify how, if at all, he has been injured, and
whether that injury stems from all or part of the
provision.
Adams desires a judgeship, and he has applied for,
or considered applying for, judicial positions since
at least 2009. If he felt his application would be
reviewed, he would consider applying for a judicial
seat on any of Delaware's five constitutional courts.
But because Adams is an Independent, he has
refrained from submitting an application in light of
the restrictions of Article IV, Section 3.
The District Court agreed with Adams that it would
have been futile to apply for a judicial position on
the Supreme Court, Superior Court, or Chancery
Court, because under Delaware's constitution,
judges on those courts must be members of one of
Delaware's two major political parties, and Adams
is not. The Governor does not contest that Adams
has constitutional standing to challenge these
provisions, and we agree that Adams has clearly
been injured by the major political party
component [**15] and therefore has standing to
challenge it.

But the District Court also concluded that Adams's
application to either the Family Court or the Court
of Common Pleas "would not have been futile,
because there is no party requirement
constitutionally attached to either Court."27 Adams
argues that the bare majority component injures
him independently of the major political party
component because it "limit[s] the right to a bare
majority to members of a 'political party.'"28 In his
view, the bare majority component mandates that
one of the two major political parties [*175]
control a bare majority of judicial seats on the
relevant court, thereby limiting an Independent's
ability to successfully apply for a position. The
component, however, creates a ceiling for members
of the same political party; it does not create a floor
entitling them to a certain number of judicial
seats.29
Therefore, we agree with the District Court's
reading of Article IV, Section 3 and conclude that
Adams does not have standing to challenge the
sections of the provision that contain only the bare
majority component. Nevertheless, the District
Court went on to conclude that Adams did not need
to establish constitutional standing because he
established [**16]
prudential standing. The
District Court's conclusion that prudential standing
can serve as "substitute" standing for a plaintiff
who cannot demonstrate constitutional standing is
incorrect. HN4[ ] While Article III standing is a
threshold issue that implicates subject matter
jurisdiction, prudential standing is not. Instead, it is
a "judicially self-imposed limit[] on the exercise of
federal jurisdiction."30 Prudential standing cannot

25 Town

of Chester, N.Y. v. Laroe Estates, Inc., 137 S. Ct. 1645,
1650, 198 L. Ed. 2d 64 (2017) (quoting Davis v. Fed. Election
Comm'n, 554 U.S. 724, 734, 128 S. Ct. 2759, 171 L. Ed. 2d 737
(2008)).
26 See

Contractors Ass'n of E. Pennsylvania, Inc. v. City of
Philadelphia, 6 F.3d 990, 995 (3d Cir. 1993) ("Our standing inquiry
has two parts: whether the Contractors have standing to challenge the
Ordinance at all, and if so, whether they have standing to challenge
all or just part of the Ordinance."); see also Service Employee's Int'l
Union, Local 3 v. Municipality of Mt. Lebanon, 446 F.3d 419, 422
(3d Cir. 2006) (separately considering a union's standing to
challenge each section of an allegedly unconstitutional municipality
ordinance).

27 J.A.

13. The last two sections of the provision, which cover the
Family Court and the Court of Common Pleas, contain only the bare
majority component.
28 Appellee's

Br. at 13-14.

29 As

the District Court explained, the bare majority component
"places no limitations on unaffiliated voters and only affects judicial
candidates of a major political party when the bare majority of
judicial offices on those courts is filled with individuals affiliated
with that major political party." J.A. 29.
30 Davis

v. City of Philadelphia, 821 F.3d 484, 487 (3d Cir. 2016)

Page 12 of 22
922 F.3d 166, *175; 2019 U.S. App. LEXIS 10618, **16

vest a court with subject matter jurisdiction;
therefore, it cannot replace or substitute for
constitutional standing, as without the latter, the
case must be dismissed.31 Therefore, because
Adams does not have Article III standing with
respect to the Family Court and the Court of
Common Pleas, we may not consider the merits of
his argument with respect to those courts.32

2. Prudential Standing
We next address whether the doctrine of prudential
standing should give us pause [*176] before
reaching the merits of the dispute over the first
three sections of the political balance requirement.
HN6[ ] Even when Article III standing is present,
we look to prudential considerations "to avoid
deciding questions of broad social import where no
individual rights would be vindicated and to
limit [**17] access to the federal courts to those
litigants best suited to assert a particular claim."33

(quoting United States v. Windsor, 570 U.S. 744, 757, 133 S. Ct.
2675, 186 L. Ed. 2d 808 (2013)).
31 See

Lance, 549 U.S. at 439.

Prudential standing requires "(1) that a litigant
assert his or her own legal interests rather than
those of a third party; (2) that the grievance not be
so abstract as to amount to a generalized grievance;
(3) and that the [plaintiff's] interests are arguably
within the 'zone of interests' protected by the
statute, rule, or constitutional provision on which
the claim is based."34
We see no reason to ignore Adams's challenge to
Article IV, Section 3 on prudential grounds.
Although the question is surely one of broad social
import in Delaware, Adams has established that
aside from his political affiliation, he feels qualified
for a judicial position and intends to apply for a
judicial position if he is able. The provision may be
of interest to many residents of Delaware, but
Adams has shown that he has a particular legal
interest in the constitutionality of Article IV,
Section 3 because of his desire to apply for a
judicial position while refraining from associating
with either the Democratic or Republican parties.
The Governor's arguments to the contrary are
unavailing. He states that Adams's interest in this
case is "merely an academic [**18] exercise"
because Adams switched his political affiliation in
the days before filing this Complaint, and had not
applied for a judicial position since 2009 although,
as a registered Democrat until 2017, he could

32 The

Governor argues that because Adams lacked standing to
challenge the sections of Article IV, Section 3 that contain only the
bare majority component, he also cannot challenge the bare majority
component even where it appears in the sections of Article IV,
Section 3 governing the makeup of the Supreme Court, Superior
Court, and Chancery Court, where the bare majority requirement is
tied to the major political party component. The Governor's
argument confuses the standing doctrine with the severability
doctrine. HN5[ ] When we consider standing, we ask whether the
plaintiff before us has actually been injured by the statute or
constitutional provision she challenges. See Spokeo, 136 S. Ct. at
1547 (citing Lujan, 504 U.S. at 560-61). When we consider
severability, we ask whether all or only part of a constitutionally
infirm statute must be stricken. See Ayotte v. Planned Parenthood of
N. New England, 546 U.S. 320, 328-29, 126 S. Ct. 961, 163 L. Ed. 2d
812 (2006). The Governor's argument puts the cart before the horse
by asking us to consider whether Adams would have standing to
challenge the bare majority component if the major political party
component were stricken from those sections. But that is not what is
before us, and we have never held that standing must be established

independently for each clause of a challenged provision. Once a
plaintiff has met the Article III requirements for a particular
constitutional or statutory provision, we have jurisdiction to turn to
the merits of her case. If we determine on the merits that part of the
statute that has injured her is unconstitutional, we then ask whether
part of the statute can remain intact while the unconstitutional part
falls. The Governor, recognizing as much, relies on our severability
jurisprudence to argue that we should leave the bare majority
provision intact without explicitly referencing the doctrine.
Recognizing his argument for what it is, we will address the
severability of the two components after addressing the
constitutionality of Article IV, Section 3.
33 Joint

Stock Society v. UDV N. Am., Inc., 266 F.3d 164, 179 (3d
Cir. 2001) (quoting Conte Bros. Auto., Inc. v. Quaker State-Slick 50,
Inc., 165 F.3d 221, 225 (3d Cir. 1998)).
34 Lewis

v. Alexander, 685 F.3d 325, 340 (3d Cir. 2012).

Page 13 of 22
922 F.3d 166, *176; 2019 U.S. App. LEXIS 10618, **18

have.35 Essentially, the Governor's argument asks
us to discredit the portions of Adams's deposition in
which he explained why he decided to leave the
Democratic Party (he was frustrated by the lack of
progressive Democrats in Delaware) and why he
did not apply for a judicial position after 2009 (he
found working for the late Beau Biden rewarding
and therefore did not consider other career
opportunities until after Biden's death in 2015). But
in opposing a motion for summary judgment, the
Governor was required to do more than speculate
that Adams has deceived the Court about his
genuine interest in applying for a judicial
position.36 The short time period in which Adams
changed his party affiliation, read the law review
article, and filed suit, without more, is insufficient
to raise a genuine issue of material fact about
Adams's prudential standing.

B. The Elrod/Branti Inquiry
We now turn to the heart of this appeal: whether the
sections of Article IV, Section 3 of the Delaware
Constitution that govern the Supreme Court, the
Superior [**19] Court, and the Chancery Court run
afoul of the First Amendment's guarantee of
freedom of association. A trio of seminal United
States Supreme Court cases explain the limits on a
government employer's ability to consider a job
candidate's political allegiance and govern our
analysis here: Elrod,37 [*177] Branti,38 and
Rutan.39 We discuss each case in turn.

plurality, recognized that the practice of patronage
dismissals—dismissing a civil servant because his
political affiliation differed from the political party
in power—is "inimical to the process which
undergirds our system of government and is at war
with the deeper traditions of democracy embodied
in the First Amendment."40 He explained that HN8[
] to justify terminating a public employee based
on political allegiance, the government must show
that the practice "further[s] some vital government
end by a means that is least restrictive of freedom
of belief and association in achieving that end, and
the benefit gained must outweigh the loss of
constitutionally protected rights."41 The plurality
suggested that the government's interest in
employee loyalty would allow it to discharge
employees in policymaking positions based on
political [**20] allegiance.42 Although "no clear
line can be drawn between policymaking and
nonpolicymaking positions," the plurality instructed
factfinders to consider the nature of the employee's
responsibilities to determine whether or not he or
she is in a policymaking position.43
The Court next examined the First Amendment
implications of politically-motivated employment
decisions in Branti v. Finkel. Summarizing Elrod,
the Court stated that HN10[ ] "if an employee's
private political beliefs would interfere with the
discharge of his public duties, his First Amendment
rights may be required to yield to the State's vital
interest in maintaining governmental effectiveness

In Elrod v. Burns, Justice Brennan, writing for the
40 427
35 Appellant's

Br. at 24-25.

36 Ramara,

Inc. v. Westfield Ins. Co., 814 F.3d 660, 666 (3d Cir.
2016) HN7[ ] (a movant may not rely on "speculation and
conjecture in opposing a motion for summary judgment").
37 427

38 445

U.S. at 357 (internal quotations marks omitted (quoting
Illinois State Employees Union v. Lewis, 473 F.2d 561, 576 (1972))).
In a concise concurrence, Justice Stewart, joined by Justice
Blackmun,
stated
that
a
HN9[ ]
"nonpolicymaking,
nonconfidential government employee" may not be discharged or
threatened with discharge on the sole ground of his or her political
beliefs. Id. at 375 (Stewart, J., concurring).

U.S. 347, 96 S. Ct. 2673, 49 L. Ed. 2d 547 (1976).
41 Id.

at 363.

42 Id.

at 367.

43 Id.

at 367-68.

U.S. 507, 100 S. Ct. 1287, 63 L. Ed. 2d 574 (1980).

39 Rutan

v. Republican Party of Ill., 497 U.S. 62, 110 S. Ct. 2729, 111
L. Ed. 2d 52 (1990).

Page 14 of 22
922 F.3d 166, *177; 2019 U.S. App. LEXIS 10618, **20

and efficiency."44 The Court, however, moved
away from Elrod's policymaking distinction and
held that "the ultimate inquiry is not whether the
label 'policymaker' or 'confidential' fits a particular
position; rather, the question is whether the hiring
authority can demonstrate that party affiliation is an
appropriate requirement for the effective
performance of the public office involved."45 The
Court explained that some positions, like that of an
election judge, might be political without being a
policymaking role, and some, like that of a state
university football coach, [**21] might involve
setting policy without being political.46

In our cases applying Branti, Elrod, and Rutan,
HN13[ ] we have set forth criteria to aid us in
determining
whether
an
employee's
job
responsibilities would make political party
allegiance an appropriate condition of employment.
We consider "whether the employee has duties that
are non-discretionary or non-technical, [**22]
participates in discussions or other meetings,
prepares budgets, possesses the authority to hire or
fire other employees, has a high salary, retains
power over others, and can speak in the name of
policymakers."50 The "key factor" is whether an
employee in that position "has meaningful input
into decisionmaking concerning the nature and
In Rutan, the Court confirmed that HN11[ ] the scope of a major program."51 Using this analysis,
general prohibition on politically-motivated we have concluded that political affiliation is an
discharge also applies to decisions to promote, appropriate requirement for a director of a veterans'
transfer, or hire an employee.47 "Unless these administrative services department,52 an assistant
patronage practices are narrowly tailored to further director of public information,53 assistant district
vital government interests, we must conclude that attorneys,54 city solicitors and assistant city
they impermissibly encroach on First Amendment solicitors,55 a solicitor for the Northeast
[*178] freedoms."48
Pennsylvania Hospital and Education Authority,56
57
The Governor of Delaware sets forth two and a city manager, among others. We have never
arguments to justify his practice of requiring before considered the role of a state judge. We now
applicants for judicial positions to be Democrats or
Republicans: first, the Governor argues that government position involves policymaking is irrelevant. We
disagree. As we have explained before, after Branti, HN12[ ] "the
because judges are policymakers, they can be hired fact that an employee is in a policymaking or confidential position is
or fired based on their political affiliation without relevant to the question of whether political affiliation is a necessary
restraint, and second, the Governor argues that even job requirement but this fact is no longer dispositive . . . ." Brown v.
if they are not policymakers, Delaware has an Trench, 787 F.2d 167, 168-69 (3d Cir. 1986); see also Galli v. New
Jersey Meadowlands Comm'n, 490 F.3d 265, 270 (3d Cir. 2007)
interest in political balance that justifies the ("The exception for 'policymaking' jobs exists because political
restrictions set forth in Article IV, Section 3.
loyalty is essential to the position itself.").
50 Galli,

1. The Policymaking

44 Branti,

45 Id.

Exception49

445 U.S. at 517.

at 518.

51 Id.

(quoting Armour v. County of Beaver, PA, 271 F.3d 417, 429
(3d Cir. 2001)).
52 Waskovich

53 Brown,

47 Rutan,

497 U.S. at 74.

at 74.

49 Adams

argues that after Branti, the question of whether a

55 Ness

v. Morgano, 2 F.3d 1292, 1298-1303 (3d Cir. 1993).

787 F.2d at 169-70.

54 Mummau

46 Id.

48 Id.

490 F.3d at 271 (citing Brown, 787 F.2d at 169).

v. Ranck, 687 F.2d 9, 10 (3d Cir. 1982).

v. Marshall, 660 F.2d 517, 520-22 (3d Cir. 1981).

56 Wetzel

v. Tucker, 139 F.3d 380, 384-86 (3d Cir. 1998).

57 Curinga

v. City of Clairton, 357 F.3d 305, 313 (3d Cir. 2004).

Page 15 of 22
922 F.3d 166, *178; 2019 U.S. App. LEXIS 10618, **22

conclude that a judicial officer, whether appointed
or elected, is not a policymaker.
This outcome is clear from the principles animating
Elrod and Branti. HN14[ ] The purpose of the
policymaking exception is to ensure that elected
officials may put in place loyal employees who will
not undercut or obstruct the new administration.58 If
a job [*179] "cannot properly be conditioned upon
allegiance [**23] to the political party in control,"
the policymaking exception is inappropriate.59
Judges simply do not fit this description. The
American Bar Association's Model Code of
Judicial Conduct instructs judges to promote
"independence" and "impartiality," not loyalty.60 It
also asks judges to refrain from political or
campaign activity.61 The Delaware Code of Judicial
Conduct similarly makes clear that judges must be
"unswayed by partisan interests" and avoid partisan
political activity.62 The Delaware Supreme Court
has stated that Delaware judges "must take the law
as they find it, and their personal predilections as to
what the law should be have no place in efforts to
override properly stated legislative will."63
Independence, not political allegiance, is required
of Delaware judges.
Article IV, Section 3 itself illustrates that political
loyalty is not an appropriate job requirement for

58 Elrod,

427 U.S. at 367 ("A second interest advanced in support of
patronage is the need for political loyalty of employees, not to the
end that effectiveness and efficiency be insured, but to the end that
representative government not be undercut by tactics obstructing the
implementation of policies of the new administration, policies
presumably sanctioned by the electorate. The justification is not
without force, but is nevertheless inadequate to validate patronage
wholesale. Limiting patronage dismissals to policymaking positions
is sufficient to achieve this governmental end.").
59 Branti,
60 Am.
61 Id.

445 U.S. at 519.

Bar Ass'n Model Code of Judicial Conduct Canon 1.

Canon 4.

62 Del.

Judges' Code Judicial Conduct Rules 2.4(A), 4.1.

Delaware judges. Delaware has chosen to
considerably limit the Governor's ability to
nominate judges on the basis of political
expediency. Instead, the Governor must ensure that
there are sufficient Democratic and Republican
judges on the bench. Far from nominating only
judges who will be loyal to his party, the Governor
may be [**24] required by Delaware's constitution
to nominate judges who belong to a different
political party. The Governor, therefore, cannot
credibly argue that he must be free to follow a rule
excluding those who do not belong to the two
major parties in Delaware because allegiance to his
party is an appropriate condition for judicial
employment.
Nor are we swayed by his argument that the
important role judges play in Delaware transforms
them into political actors. The Governor argues that
by interpreting statutes, sentencing criminal
defendants, and crafting the common law, judges in
Delaware make policy and exercise significant
discretion. But the question before us is not
whether judges make policy,64 it is whether they
make policies that necessarily reflect the political
will and partisan goals of the party in power. That
is why, as the Court explained in Branti, a football
coach for a state university cannot be discharged
because of her political affiliation even though she
may formulate policy for the athletic department.65
And why public defenders, who made some policy
decisions in fulfilling their public office, still could
not be fired on the basis of their political
allegiance—because their [**25] policymaking
[*180] activity did not relate to "any partisan
64 Compare

Matthews v. Lucas, 427 U.S. 495, 515, 96 S. Ct. 2755, 49
L. Ed. 2d 651 (1976) ("Nor, in ratifying these statutory
classifications, is our role to hypothesize independently . . . . These
matters of practical judgment and empirical calculation are for
Congress."), with Wetzel, 139 F.3d at 386 ("Tough legal questions
are not answered mechanically, but rather by the exercise of
seasoned judgment. Judgment is informed by experience and
perspective . . . ."); see generally Gregory v. Ashcroft, 501 U.S. 452,
465-67, 111 S. Ct. 2395, 115 L. Ed. 2d 410 (1991) (explaining,
without resolving, the debate over whether judges make policy).

63 Leatherbury

v. Greenspun, 939 A.2d 1284, 1292 (Del. 2007)
(quoting Ewing v. Beck, 520 A. 2d 653, 660 (1987)).

65 Branti,

445 U.S. at 518.

Page 16 of 22
922 F.3d 166, *180; 2019 U.S. App. LEXIS 10618, **25

political interest."66

to [**26] members of the judicial branch.

To the extent that Delaware judges create policy,
they do so by deciding individual cases and
controversies before them, not by creating partisan
agendas that reflect the interests of the parties to
which they belong.67 Similarly, although the
Governor contends that Delaware judges have
meaningful input into a major government program
because they set the judiciary's budget and create
rules of civil and criminal procedure, the operation
of the judicial branch is not "so intimately related to
[Delaware] policy" that the Governor would have
"the right to receive the complete cooperation and
loyalty of a trusted advisor [in that position]."68

We are aware that two of our sister Circuits have
concluded otherwise. In Kurowski v. Krajewski, the
Seventh Circuit determined that the guiding
question in political affiliation cases was "whether
there may be genuine debate about how best to
carry out the duties of the office in question, and a
corresponding need for an employee committed to
the objectives of the reigning faction," and
answered that question in the affirmative with
respect to judges and judges pro tempore.70 In
Newman v. Voinovich, the Sixth Circuit similarly
concluded that judges were policymakers who
could be appointed on the basis of their partisan
affiliation.71 We find these cases unpersuasive for
two reasons.

The policymaking inquiry is designed to test
whether the position in question "is one which
cannot be performed effectively except by someone
who shares the political beliefs of [the appointing
authority]."69 Put simply, while judges clearly play
a significant role in Delaware, that does not make
the judicial position a political role tied to the will
of the Governor and his political preferences. As
such, the policymaking exception does not apply
66 Id.

at 519.

[*181] First, we do not believe, as the Seventh
Circuit does, that the policymaking exception
described in Elrod and Branti is merely "shorthand
for a broad category of public employees whose
work is politically sensitive and who exercise
significant discretion in the performance of their
duties."72 Under the Seventh Circuit's view, so long
as employees make decisions involving issues
about which "political debates rage," they may be
hired or fired for [**27] their party affiliation.73

67 See

Branti, 445 U.S. at 519-20 ("[W]hatever policymaking occurs
in the public defender's officer must relate to the needs of individual
clients and not to any partisan political interests. . . . Under these
circumstances, it would undermine, rather than promote, the
effective performance of an assistant public defender's office to
make his tenure dependent on his allegiance to the dominant political
party.").
68 Ness,

660 F.2d at 522 ("[W]e agree with the district court that, as a
matter of law, the duties imposed on city solicitors by the York
Administrative Code and the undisputed functions entailed by these
duties e.g., rendering legal opinions, drafting ordinances, [and]
negotiating contracts define a position for which party affiliation is
an appropriate requirement. In relying on an attorney to perform
these functions so intimately related to city policy, the mayor has the
right to receive the complete cooperation and loyalty of a trusted
adviser, and should not be expected to settle for less.").
69 Brown,

787 F.2d at 170. See also Branti, 445 U.S. at 517 HN15[
] ("[I]f an employee's private political beliefs would interfere with
the discharge of his public duties, his First Amendment rights may
be required to yield to the State's vital interest in maintaining
governmental effectiveness and efficiency.").

70 Kurowksi,

848 F.2d 767, 770 (7th Cir. 1988) ("A judge both
makes and implements governmental policy. A judge may be
suspicious of the police or sympathetic to them, stern or lenient in
sentencing, and political debates rage about such questions. In most
states judges are elected, implying that the office has a political
component. Holders of the appointing authority may seek to ensure
that judges agree with them on important jurisprudential
questions.").
71 Newman,

986 F.2d 159, 163 (6th Cir. 1993) ("We agree with the
holding in Kurowski that judges are policymakers because their
political beliefs influence and dictate their decisions on important
jurisprudential matters. . . . Therefore, we believe that Governor
Voinovich's appointment of judges based on political considerations
is consistent with Elrod, Branti, and Rutan.").
72 Hagan

v. Quinn, 867 F.3d 816, 824 (7th Cir. 2017) (finding that
arbitrators on the Illinois Workers' Compensation Commission are
policymakers).
73 Kurowski,

848 F.2d at 770.

Page 17 of 22
922 F.3d 166, *181; 2019 U.S. App. LEXIS 10618, **27

HN16[ ] We have always more narrowly applied
the policymaking exception to only the class of
employees whose jobs "cannot be performed
effectively except by someone who shares the
political beliefs of [the appointing authority]."74
There can be no serious question that judicial
candidates of different political parties can
effectively serve as state judges. Thus, while
"political debates rage" about issues that judges
must decide in the course of their state
employment, we do not believe that this leaves
judges entirely at the whim of state governors and
the patronage of the ruling party. While states have
nearly unfettered discretion to select state judges,
states cannot condition judicial positions on
partisan political affiliation alone.

weigh an individual candidate's political beliefs and
to condition judicial positions on party allegiance,
we must disagree.
We therefore conclude that state judges do not fall
within the policymaking exception because
affiliation with a particular political party is not a
requirement for the effective performance of the
judicial role.

2. Delaware's Interest in Political Balance

We next consider the Governor's second argument,
that even if state judges are not policymakers, their
political affiliation is still an appropriate condition
of state employment. The Court in Rutan
emphasized that politically motivated employment
Second, the opinions in Kurowski and Newman
practices could be constitutional if they are
conflate an appointing authority's ability to
"narrowly tailored to further [*182] vital
consider the political beliefs and ideologies of state
government interests."77 While most cases
employees with that authority's ability to condition
following Branti have focused on the policymaking
employment on party loyalty. HN17[ ] Under our
exception, which relates to a state's interest in the
case law, discrimination based on political
loyalty and efficiency of key state employees, the
patronage is only actionable where the employee's
Governor argues that Article IV, Section 3 can be
political affiliation was a "substantial or motivating
justified by a different interest—the interest in
factor
in
the
government's
employment
political balance. We need not dwell long on
decision."75 [**28] Elrod and Branti protect
whether Delaware possesses a "vital state interest"
affiliation—and decisions not to affiliate—with a
in a politically balanced judiciary, because
political party. We have never read them to prohibit
Delaware's practice of excluding Independents and
an appointing official from considering a job
third party voters from judicial employment is not
candidate's views on questions and issues related to
narrowly [**29] tailored to that interest.
the job itself. There is a wide gulf between a
governor asking a judicial candidate about his The Governor posits that the Supreme Court has
philosophy on sentencing, for example, and a always
recognized
the
permissibility
of
governor posting a sign that says "Communists conditioning appointments on political affiliation
need not apply."76 The former does not run afoul of when the goal is to ensure political balance. In
the First Amendment; but in our view, the latter Branti, the Court stated that "if a State's election
does. Because the approach of the Sixth and laws require that precincts be supervised by two
Seventh Circuits would allow governors both to election judges of different parties, a Republican
judge could be legitimately discharged solely for
changing his party registration."78 Similarly, in
74 Brown,

75 Galli,

76 See

787 F.2d at 170.

490 F.3d at 271.

Keyishian v. Bd. Of Regents of Univ. of State of N.Y., 385 U.S.
589, 605-10, 87 S. Ct. 675, 17 L. Ed. 2d 629 (1967).

77 Rutan,

78 Branti,

497 U.S. at 74.

445 U.S. at 518. The Sixth Circuit, following Branti, has
categorically held that employment decisions conditioned on

Page 18 of 22
922 F.3d 166, *182; 2019 U.S. App. LEXIS 10618, **29

LoFrisco v. Schaffer and Hechinger v. Martin, the
Supreme Court affirmed two district court decisions
approving political balance statutes governing
elections for a state's boards of education and the
District of Columbia's city council, respectively.79
The Governor also points to several federal
administrative agencies that use some form of
political balance requirement for decisionmaking
bodies, including the Federal Deposit Insurance
Corporation, the Federal Trade Commission, the
Securities and Exchange Commission, the Federal
Communications Commission, the Commission on
Civil Rights, the Federal Energy Regulatory
Commission,
and
the
Federal
Election
Commission. These examples show some support
for the Governor's argument, but [**30] unlike
elected officials and agency representatives who
explicitly make policy, judges perform purely
judicial functions. Further, it is difficult to see how
the logic of political balance and minority
representation
extends
from
multimember
deliberative bodies, like a school board, to
Delaware's judiciary, most of whom sit alone.80

Seventh Circuit found that partisan balance
concerns are less compelling with respect to judges,
who are "not elected [or appointed] to represent a
particular viewpoint" and [*183] instead are
required to "exercise [their] own independent
authority to make decisions that uphold and apply
the law fairly and impartially."82 The court also
emphasized that "partisan balance amongst the
judges who comprise the court, alone, has little
bearing on impartiality" because while it [**31]
can "serve as a check against contrary partisan
interests," it does not affect "the impartiality of
individual members."83
While we share many of the Seventh Circuit's
concerns about conflating party balance with
judicial impartiality, we need not resolve the issue
today. HN18[ ] To justify a rule that impinges an
employee's First Amendment association rights, the
state must show both that the rule promotes "a vital
state interest" and that the rule is "narrowly
tailored" to that interest. Even assuming judicial
political balance is a vital Delaware interest, the
Governor must also show that the goals of political
balance could not be realized without the restrictive
nature of Article IV, Section 3, and this he has
failed to do.

The Seventh Circuit has also addressed the political
balance interest in the judicial context. In Common
Cause Indiana v. Individual Members of the
Indiana Election Commission, the court considered
a municipal ordinance prohibiting political parties The Governor describes the benefits of balance and
from nominating candidates for more than half of details the popularity Article IV, Section 3 has
the eligible seats on its superior court.81 The among Delaware judges and former judges. But this
cannot suffice as a justification to bar candidates
political party affiliation are permissible where the position is one of who do not belong to either the Democratic or
parties from seeking judicial
several "filled by balancing out political party representation, or that Republican
are filled by balancing out selections made by different government appointment, because the Governor fails to explain
agents or bodies." McCloud v. Testa, 97 F.3d 1536, 1557 (6th Cir.
why this is the least restrictive means of achieving
1996).
political balance. HN19[ ] Because the Governor
79 See Lo Frisco v. Schaffer, 341 F. Supp. 743, 744-45, 750 (D.
has not shown that Article IV, Section 3 is narrowly
Conn. 1972), aff'd 409 U.S. 972, 93 S. Ct. 313, 34 L. Ed. 2d 236 tailored to further a vital state interest, the
(1972); Hechinger v. Martin, 411 F. Supp. 650, 653 (D.D.C. 1976),
infringement on [**32]
judicial candidates'
aff'd 429 U.S. 1030, 97 S. Ct. 721, 50 L. Ed. 2d 742 (1977).
association rights is unconstitutional.
80 The

Delaware Supreme Court is the only judicial body in which a
panel of judges regularly hears cases as a collective. Even then,
panels are usually comprised of three of the five judges on the court.
The political balance on a panel, therefore, does not necessarily
mirror the political balance of the Supreme Court as a whole. See
Randy J. Holland and David A. Skeel, Jr., Deciding Cases Without
Controversy, 5 Del. L. Rev. 115, 121 (2002).

81 Common

82 Id.
83 Id.

Cause, 800 F.3d 913, 915 (7th Cir. 2015).

at 922-23.

Page 19 of 22
922 F.3d 166, *183; 2019 U.S. App. LEXIS 10618, **32

C. Severability
We need not determine whether the bare majority
component,
operating
alone,
would
be
unconstitutional, because we conclude that the
unconstitutional major political party requirement
is not severable from the sections of Article IV,
Section 3 relating to the Supreme Court, Superior
Court, and Chancery Court.
HN20[ ] Severability of a state statute or
constitutional provision is a question of state law.84
The Chancery Court has explained that severability
analysis under Delaware law proceeds in two steps:
first, courts consider whether the "unobjectionable"
part of the provision, standing alone, would be
capable of enforcement; and second, courts
consider whether the legislature intended for the
unobjectionable part to stand "in case the other part
should fall."85 In determining whether one portion
of a statute or constitutional provision is severable
from another, the "touchstone" must always be
legislative intent.86
Here, there is no question that the bare majority
component is capable of standing alone, as it does
in the provisions of Article IV, Section 3 involving
the Family Court and the Court of Common Pleas.
But because we do not think the two
components [**33] were intended to operate
separately, we find that the major political party
component is not severable.
[*184] For nearly seventy years, the bare majority
component and the major political party component
have been intertwined in the sections of Article IV,
Section 3 pertaining to the Supreme Court,

84 See

Contractors Ass'n of E. Pennsylvania, 6 F.3d at 997 (quoting
City of Lakewood v. Plain Dealer Pub. Co., 486 U.S. 750, 772, 108
S. Ct. 2138, 100 L. Ed. 2d 771 (1988)).
85 Doe

v. Wilmington Hous. Auth., 88 A.3d 654, 669 n. 68 (Del.
2014) (quoting Farmers of Fairness v. Kent Cty., 940 A.2d 947, 962
(Del. Ch. 2008)).
86 Ayotte,

546 U.S. at 330; see also Doe, 88 A.3d at 669 n. 68.

Chancery Court, and Superior Court. Both
components operate in tandem to dictate the bipartisan makeup of Delaware's courts. Operating
alone, the bare majority component could be
interpreted to allow a Governor to appoint a liberal
member of the Green Party to a Supreme Court seat
when there are already three liberal Democrats on
that bench. Only with the (unconstitutional) major
political party component does the constitutional
provision fulfil its purpose of preventing single
party dominance while ensuring bipartisan
representation.87
Against this backdrop, the Governor has offered no
evidence suggesting that the Delaware General
Assembly,
which
authorizes
constitutional
amendments, intended for the bare majority
component to stand even if the major political party
component fell. The Governor points to no
applicable severability legislation passed by the
General Assembly, nor has he shown that in the
history [**34] of this specific constitutional
provision, the General Assembly conceived of the
components as independent and separable.88
HN21[ ] While we are mindful that we should
refrain from invalidating more of a statute than
necessary,89 here, the two substantive components

87 Cf.

id. (finding that two provisions of a housing policy were not
severable when they were "enacted[] together" and one provision
was designed to "enforce compliance" with the other); Matter of
Oberly, 524 A.2d 1176, 1182 (Del. 1987) (explaining that severance
is only possible if the residual component has "separate purpose and
independent legislative significance").
88 This

case, then, is a far cry from cases like Ayotte and Executive
Benefits Insurance Agency v. Arkinson, upon which the Governor
relies. In both cases, the laws at issue contained severability clauses
that are not present here. See Ayotte, 546 U.S. at 331; Exec. Benefits
Ins. Agency, 573 U.S. 25, 36, 134 S. Ct. 2165, 189 L. Ed. 2d 83
(2014); see also State v. Dickerson, 298 A.2d 761, 766 (Del. 1972),
abrogated on other grounds by Woodson v. North Carolina, 428
U.S. 280, 96 S. Ct. 2978, 49 L. Ed. 2d 944 (1976) (finding statutory
provisions severable because of Delaware's general severability
statute).
89 Cf.

Dickerson, 298 A.2d at 766 n. 11 ("Any doubt, as to the
correctness of our conclusion on severability, is resolved by the
maxims that a statute must be held valid if it is possible for the court

Page 20 of 22
922 F.3d 166, *184; 2019 U.S. App. LEXIS 10618, **34

of Article IV, Section 3 are interdependent and
equally integral to the political balance scheme
Delaware envisioned for the Supreme Court,
Superior Court, and Chancery Court. It is not our
place to rewrite the balance the General Assembly
struck in crafting Article IV, Section 3 ourselves.90
HN22[ ] Finding that the major political party
component cannot be severed, we conclude that the
sections of Article IV, Section 3 containing the
major
political
party
component
are
unconstitutional and must be stricken.

perspective of someone who has served as a state
court judge in a jurisdiction that selects judges in
general elections preceded by partisan political
campaigning and the fundraising that is endemic to
political campaigns. In doing so, I certainly do not
mean to in anyway cast aspersions upon the many
dedicated, intelligent and hardworking men and
women whom the electorate in such jurisdictions
ultimately select to serve as judges. I only wish to
note the potential damage to the image of the
judiciary in such jurisdictions and the extent to
which it can undermine the public's faith in the
judges who are elected.1

III. Conclusion
For the foregoing reasons, we find that Adams has
shown that his freedom of association rights were
violated by the political balance requirement that
prevented his application to the Supreme Court,
Superior Court, and Chancery Court. Therefore, we
conclude that the first three sections of [*185]
Article IV, Section 3 violate the First Amendment.
We affirm the District of Delaware's order granting
summary judgment to Adams on [**35] those
sections. Because Adams had no standing to
challenge the sections of Article IV, Section 3
dealing with the Family Court and the Court of
Common Pleas, however, we reverse the District of
Delaware's order as it pertained to those sections.
Concur by: McKEE

Concur
McKEE, Circuit Judge,
Restrepo and Fuentes join.

concurring.

Judges

I join my colleagues' thoughtful opinion in its
entirety. I write separately merely to add the
to do so; that every presumption must be resolved in favor of its
validity; and that it should not be declared unconstitutional unless the
court is convinced of that status beyond a reasonable doubt.").
90 See

Ayotte, 546 U.S. at 329 HN23[ ] ("[W]e restrain ourselves
from rewriting state law . . . even as we strive to salvage it." (internal
punctuation marks and citation omitted)).

All of us have a keen understanding [**36] of, and
appreciation for, the fact that the provisions we
strike down today were enacted to ensure selection
of a judiciary whose political balance would serve
notice that judicial decisions were devoid of
politics and political motivations. Paradoxically, by
elevating one's political affiliation to a condition
precedent to eligibility for appointment to the
bench by the Governor, Delaware has
institutionalized the role of political affiliation
rather than negated it. As we explain, the resulting
system of judicial selection is in conflict with the
First Amendment right of association even though it
has historically produced an excellent judiciary;
accordingly, it cannot survive this First Amendment
challenge. Although this is as paradoxical as it is
ironic, it is really not surprising that the judicial
system that has resulted from Delaware's political

1 The

criticism of systems where judges are elected has stressed the
importance of such irrelevant factors as campaign contributions and
the importance of ballot position. See The Inquirer Editorial Board,
Editorial, Close Down the Circus: Replace Judicial Elections with
Merit Selection, PHILA. INQUIRER, (July 13, 2018) (
http://www.philly.com/philly/opinion/editorials/judicial-electionmerit-selection-pennsylvania-election-reform-20180713.html ) ("In
Pennsylvania we elect judges in partisan elections . . . The corrosive
effects of money work over time until it is impossible for people to
trust the court system."); Ryan Briggs, Does Ballot Position Matter?
Science Says 'Yes,' CITY AND STATE PENNSYLVANIA (Dec. 20, 2016),
https://www.cityandstatepa.com/content/does-ballot-position-matterscience-says-%E2%80%98yes%E2%80%99 (last visited Jan. 17,
2019) ("Sheer luck has more to do with becoming [a] judge in the
city [of Philadelphia] than experience or endorsements.").

Page 21 of 22
922 F.3d 166, *185; 2019 U.S. App. LEXIS 10618, **36

balance requirements is as exemplary as the judges
who comprise it.

reputation so firmly established, it is perhaps not
surprising that attorneys contemplating judicial
candidacy [**38] have not previously challenged
this constitutional framework.6

In 2011, then-Delaware Supreme Court Justice
Randy J. Holland presciently observed that the
"political balance provisions appear to prevent the [*187] But that excellence cannot justify the
appointment of persons belonging to a third constitutional transgression that is baked into the
political party or having no party affiliation. To
date, however, there has been no court challenge to
this requirement [**37] under the United States
Constitution."2 Justice Holland's observation about
the absence of challenges to the 122 year-old
constitutional framework that plainly implicates the
First Amendment is understandable given the wellearned excellent reputation of the state courts it has
produced.
[*186] Praise for the Delaware judiciary is nearly
universal, and it is well deserved. Scholars and
academics routinely refer to Delaware's courts as
the preeminent forum for litigation, particularly for
cases involving business disputes.3 On the
bicentennial anniversary of the establishment of the
Court of Chancery, then-Chief Justice Rehnquist
observed that the "Delaware state court system has
established its national preeminence in the field of
corporation law" and identified such hallmarks of
the Court of Chancery as its "[j]udicial efficiency
and expertise, a well-paid and well-respected
judiciary, innovative judicial administration [and]
courageous leadership."4 Members of the Delaware
bench credit the political balancing requirement for
at least part of this success.5 With that national

2 Randy

J. Holland, THE DELAWARE STATE CONSTITUTION 149

(2011).
3 See,

e.g., Omari Scott Simmons, Delaware's Global Threat, 41 J.
OF CORP. L. 217, 224 (2016) (referring to the "preeminence of
Delaware's courts in resolving corporate disputes"); Ehud Kamar, A
Regulatory Competition Theory of Indeterminacy in Corporate Law,
98 Columbia L. Rev. 1908, 1926 (1998) ("Delaware courts have
earned a unique reputation for quality adjudication").
4 William

H. Rehnquist, Chief Justice of the United States, Address
at the Bicentennial of the Delaware Court of Chancery (Sep. 18,
1992) in The Prominence of the Delaware Court of Chancery in the
State-Federal Joint Venture of Providing Justice, 48 THE BUSINESS
LAWYER 1 (1992).

5 See,

e.g., Devera B. Scott, et al., The Assault on Judicial
Independence and the Uniquely Delaware Response, 114 Penn St. L.
Rev. 217, 243 (2009) (quoting President Judge Jan R. Jurden as
saying the "Delaware judicial nominating process goes to great pains
to ensure a balanced and independent judiciary, and, therefore, it is
no surprise that the public perceives Delaware courts as fair arbiters
of justice."); E. Norman Veasey & Christine T. Di Guglielmo, What

Page 22 of 22
922 F.3d 166, *187; 2019 U.S. App. LEXIS 10618, **38

selection process. As we explain,7 despite the state's
interest in achieving a judicial system that is as fair
in fact as it is in appearance, the provisions of the
Delaware Constitution restricting who can apply for
judicial appointment are not narrowly tailored to
achieve their laudatory objectives. Accordingly, we
Happened in Delaware Corporate Law and Governance from 19922004? A Retrospective on Some Key Developments, 153 U. Pa. L.
Rev. 1399, 1401 (2005) (former Chief Justice of the Delaware
Supreme Court stating that Delaware's judicial "system has served
well to provide Delaware with an independent and depoliticized
judiciary and has led . . . to Delaware's international attractiveness as
the incorporation domicile of choice."); Leo E. Strine, Jr., The
Delaware Way: How We Do Corporate Law and Some of the New
Challenges We (and Europe) Face, 30 Del. J. Corp. L. 673, 683
(2005) (Chief Justice of the Delaware Supreme Court noting that its
judicial selection process has resulted "in a centrist group of jurists
committed to the sound and faithful application of the law.").
6 Indeed,

one of this court's two courtrooms is named for Collins J.
Seitz; a legendary judge of national prominence who served with
great distinction as a judge on the Delaware Court of Chancery
before being appointed to this court by President Johnson in 1966.

need not decide whether Delaware has a "vital state
interest" that justifies the limitations on political
affiliation. [**39] That question may be decided in
a future case. Moreover, Delaware may choose to
amend its Constitution in a manner that achieves
the goals of the problematic political affiliation
requirements without their attendant constitutional
infirmities.
No matter what ensues, I have little doubt that the
constitutional provisions which we today invalidate
have resulted in a political and legal culture that
will ensure the continuation of the bipartisan
excellence of Delaware's judiciary. That culture
appears to be so firmly woven into the fabric of
Delaware's legal tradition that it will almost
certainly endure in the absence of the political
affiliation requirements that run afoul of the First
Amendment.
End of Document

While sitting on the Delaware Court of Chancery, Judge Seitz
decided Belton v. Gebhart, 32 Del. Ch. 343, 87 A.2d 862 (1952) in
which he courageously ordered the desegregation of the Delaware
public schools two years before the United States Supreme Court
struck down the doctrine of "separate but equal" in Brown v. Bd. Of
Educ. 347 U.S. 483, 74 S. Ct. 686, 98 L. Ed. 873 (1954). The appeal
from his decision there was one of the four consolidated cases before
the Court in Brown where the Supreme Court affirmed the view
Judge Seitz had expressed in ordering the desegregation of the
Delaware's schools rather than ordering Delaware to make its
"Negro" schools equal to those serving White students. In Belton,
Judge Seitz based his ruling on his factual conclusion that the Negro
schools were inferior to White schools and therefore not equal; the
approach that was then required under Plessy v. Ferguson, 163 U.S.
537, 16 S. Ct. 1138, 41 L. Ed. 256 (1896).
Nevertheless, in reaching his decision, Judge Seitz clearly stated that
the doctrine of Plessy was itself an anathema to the United States
Constitution because segregated schools were, by definition,
unequal. Foreshadowing Brown, he wrote: "I believe that the
'separate but equal' doctrine in education should be rejected, but I
also believe its rejection must come from [the Supreme Court.]."
Belton, 87 A.2d at 865. His decision was later aptly described as a
demonstration of Judge Seitz's "courage and moral clarity." William
T. Allen, The Honorable Collins J. Seitz: Greatness in a Corporate
Law Judge, 16 FALL DEL. LAW 5, 3. (1998).
It is particularly appropriate to mention Judge Collins Seitz here
because he is such a dramatic example of the judicial excellence I am
referring to in extolling Delaware's judiciary.
7 Maj.

Op, at 24-25.

APPENDIX B

Case: 18-1045

Document: 003113231415

Page: 1

Date Filed: 05/07/2019

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 18-1045

JAMES R. ADAMS
v.
GOVERNOR OF DELAWARE,
Appellant

(D. Del. No.: 1-17-cv-00181)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN**,
HARDIMAN**, GREENAWAY, JR., SHWARTZ, KRAUSE**, RESTREPO, BIBAS**,
PORTER, MATEY, and FUENTES,* Circuit Judges
The petition for rehearing filed by appellant, in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

Pursuant to Third Circuit I.O.P. 9.5.3., Judge Fuentes’s vote is limited to panel
rehearing.
**
Judges Jordan, Hardiman, Krause, and Bibas voted to grant rehearing.
*

Case: 18-1045

Document: 003113231415

Page: 2

Date Filed: 05/07/2019

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Julio M. Fuentes
Circuit Judge
Dated: May 7, 2019
Lmr/cc: David L. Finger
Pilar G. Kraman
Martin S. Lessner
David C. McBride

